                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL                               \
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM
                                                                                                       \



    Case Number: A07040020                                                                      Page 1 of 1



                 After conducting an inquiry, we referred an allegation of plagiarism against a former NSF
         program officer (the subject)' to his home institution.' The alleged plagiarism appeared in an NSF,
         proposal3that the Subject submitted within one year of his return to the institution. The source of the
         copied text was a single, funded NSF award that the Subject had recommended for funding during
         his service to NSF. The proposal named a COPI? who served only as the Subject's designated
         negotiator with NSF, consistent with NSF's post-employment restrictions.

                 The institution made a finding of research misconduct, noting that the Subject's explanation
         for the copied text, involving bird vocalizations, was "almost laughable if the charges were not so
         grave." The institution placed the Subject on unpaid. leave for one semester; prohibited him from
         supervising, advising, and participating in student research programs for one year; prohibited him
         from submitting proposals for internal q d external funding for two years; and, afterward, his
         proposal submissions, would be reviewed by an institutional committee for two years.

                In our attached report, we found that the institution's investigation was accurate and complete
         in accordance with reasonable procedures. We recommended NSF: make a finding of research
         misconduct; debar the Subject for two years; require certifications and assurances for five years
         following the debarment period; require the Subject to certify completion of ethics training; and
         prohibit the Subject from serving NSF as a reviewer, advisor, or consultant for aperiod of five years.
         NSF made a finding of research misconduct (attached) implementing all of our recommendations
         with the exception of debarring the Subject for 18 months instead of 2 years.

                    Accordingly, this case is closed.




I
NSF 01G Form 2 (1 1/02)
                                 NATIONALSCIENCE FOUNDATION
                                      1201 WILSON BOULEVARD
                                     ARI,INGTON, VIRGINIA 22230



                                        MAY 2>2 2009

    OFFICE OF THE
   DEPUTY DIRECTOR




                           -
VIA CERTTFIED MAIL RETURN RECEIPT REQUESTED

Godfrey Bourne




Dear- Dr. 'Bourne:

On February 19, 2009, the Nalional Science Foundation ('%SF") sent you a Notice of Proposed
Debarment in which NSF proposed to debar you li-orn directly or indirectly obtaining the benefits
of Federal grants until August 31, 201 0. The Notice sets forth in detail the circumstances giving
rise to NSF's decisio1.1to propose your debarment. Specifically, NSF indicated in the Notice that
Il~cproposed debamlent is based upon your submission o f a proposal to NSF containing
plagiarized material. In that Notice, NSF provided you with tllitty days to respond to the
proposed debamlent,

Over thirty days have elapsed and NSF 113s tlot received a response. Accordingly, you arc
dd~arreduntil August 3 1 , 201 0. Dcbament precludes you From receiving Federal financial and
11oi.1-financialassistance and benefits under non-procurement Federal programs and activities
unless an agency head or authorized designee malccs a detenmination to grant an exception in
accordance wit11 2 CFR Section 1 SO. 1 35. Non-procurement transactions Include grants,
coopcrativc agreements, scl~olarships,fellowshjl~s,colltracts of assistance, loans, loan parantces,
subsidies, insurance, payments for specified use, and donation agreements.
I n addition, you are prohibited from receiving Federal cantracts or approved subcontracts under
rile Federal Acquisition Regulations ("FAR") at 48.CFR Subpart 9.4 for the period ofthis
dcbannent. 2 CFR Section 190.170. During the debarment period, you may not have supervisory
               priinaly management. substantive control over, or critical influence on, a grant,
resp~i~sibility,
ccmtract, or coopa-ative ageernent with any agency of tlre Executive Branch oftlie Federal
Government.

I,astly, plcasc noic that, in thc Notice of Proposed Debarment, NSF also took the following
actiot~sagainst you, which continue to rcrnain in cff'ect:

       From the end of your debarment period through August 3 1,201 2, you are required to
       certify to the 016 that any proposals or rcports you submit in connection with NSF-
       hnded rescarch do not contain plagiarized, falsified, or fabricated material.

   0   Frorn the end of your- debanncnt pcriod through August 3 1 20 12, you are required to
       submit to the OSG assurances by a responsible official of your employer that any proposals
       or reports you submit in connection with NSF-funded research do not contain plagiarized,
       falsified, or fabricated material.

   * You are prohibited fi-om serving as an NSF reviewer, advjs'or, or consultant until August
       31: 2012.

   Q   You are required to cornplete an ethics training course on plagiarism prior to submitting
       anotl~erproposal to NSF as a Principal Investigator or a co-Principal Investigator. You
       must certify in wrjting to the OIG that such training has been completed.


If you have any qucstr'or~sregarding thc foregoing, please contact         Assistant Gencral
Counsel, National Science Foundation, Oflicc of the General Cow~sel,4201 Wilson Boulevard,
Room 1265; Arlil~gtoii,Virginia, 22230.




                                                     Sincerely,



                                                     Cora B. Marrett
                                                     Acting Deputy Director
                                                       '-

                                 NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON. VIRGINIA 22230




                                           FEB jl 9 2009
    OFFICE OF THE
   DEPUTY DIRECTOR




CERTIF'ED MAIL --RETURN RECEIPT REQUESTED




       Re: Notice of Proposed Debarment and Notice of Research Misconduct Determination


Dear Dr. Bourne:




Inspector General (" OIG), this proposal contained plagiarized material.

In light of your misconduct, this letter serves as formal notice that NSF is proposing to debar you
6om directly or indirectly obtaining the benefits of Federal grants until August 3 1, 2010. During
your period of debarment, you will be precluded fiom receiving Federal financial and non-financial
assistance and benefits under non-procurement Federal programs and activities. In addition, you
will be prohibited fiom receiving any Federal contracts or approved subcontracts under the
Federal Acquisition Regulations (" FAR). Lastly, during your debarment period, you will be
barred fkom having supervisoryresponsibility,primary management, substantive control over, or
critical influence on, a grant, contract, or cooperative agreement with any agency of the Executive
Branch of the Federal Government.

In addition to proposing your debarment, I am prohibiting you fkom serving as an NSF reviewer,
advisor, or consultant to NSF until August 3 1, 201 2. Furthermore, until August 3 1, 20 12, I am
requiring that you submit certifications, and that a responsible official of your employer submit
assurances, that any proposals or reports you submit to NSF do not contain plagiarized, falsified,
or fabricated material. Lastly, you must complete an ethics training course on plagia&m prior to
submitting another proposal to NSF as a Principal Investigator or co-PrincipalInvestigator,and
                                                                                               Page 2
certify in writing to the OIG that you have done so.


Research Misconduct and Sanctions other than D

Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification, or
                                                                    ."
plagiarism in proposing or performing research funded by NSF .. 45 CFR 5 689.l(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR 5 689.l(a)(3). A finding of research misconduct
requires that:

        (1) There be a significant departure fiom accepted practices of the relevant research
            community; and
        (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
        (3) The allegation be pro,ven by a preponderance of evidence.

45 CFR $689.2(c).

Your proposal contained verbatim and paraphrased text fiom a source document. By submitting
a proposal to NSF that copies the ideas or words of another without adequate attribution, as
described in the OIG investigative report, you misrepresented someone else's work as your own.
In addition, you failed to properly acknowledge or credit the author of the source document in
your proposals. Your conduct unquestionably constitutes plagiarism. I therefore conclude that
your actions meet the applicable defhition of "research misconduct" set forth in NSF's
regulations.                                                                                             \




Pursuant to NSF's regulations, the Foundation must also determine whether to make aJinding of
misconduct based on a preponderance of the evidence. 45 CFR 5 689.2(c). After reviewing the
Investigative Report, NSF has determined that, based on a preponderance of the evidence, your
plagiarism was committed intentionally and constituted a significant departure fiom accepted
practices of the relevant research community. I     therefore, issuing a finding of research
misconduct against you.

NSF's regulations establish three categories of actions (Group I, 11, and 111) that can be taken in
response to a finding of misconduct; 45 CFR §689.3(a). Group I actions include issuing a letter
of reprimand; conditioning awards on prior approval of particular activities fiam NSF; requiring
that an institution or individual obtain special prior approval of particular activities fiom NSF; and
requiring thatan institutional representative certify as to the accuracy of reports or certifications
of compliance with particular requirements. 45 CFR $689.3(a)(l). Group I1 actions include
award suspension or restrictions on designated activities or expenditures; requiring special
reviews of requests for funding; and requiring correction to the research record. 45 CFR
$689.3(a)(2). Group I11 actions include suspension or terminationof awards; prohibitions on
participationas NSF reviewers, advisors or consultants; and debarment or suspension fi-om
                                                                                             Page 3
participation in NSF programs. 45 CFR 8 689.3(a)(3).
                               I


In determining the severity of the sanction to impose for research misconduct, I have considered
the seriousnessof the misconduct; our determinationthat it was committed intentionally;the fact
that you became aware of the source document through your involvement as an NSF Program
Ofiicer in the confidential merit review process; and the fact that you misrepresented to the author
of the source document how you would be using her proposal. I have also considered other
relevant circumstances. 45 CFR $689.3@).

I, therefore, take the following actions:

       From the end of your debarment period through August 3 1, 20 12, you are required to
       submit certifications that any proposals or reports you submit to NSF do not contain
       plagiarized, falsified, or fabricated material.

       From the end of your debarment period through August 3 1,20 12, you are required to
       submit assurances by a responsible official of your employer that any proposals or reports
       you submit to NSF do not contain plagiarized, falsified, or fabricated material.

       From the date of this letter through August 3 1, 201 2, you are prohibited fiom serving as
       an NSF reviewer, advisor, or consultant.

       You are required to complete an ethics training course on plagiarism prior to submitting
       another proposal to NSF as a Principal Investigator or a co-Principal Investigator. You
       must certify in writing to the OIG that such training has been completed.

All certifications and assurances should be submitted 'in writing to the Office of Inspector General
Associate Inspector General for Investigations, 420 1 Wilson Boulevard, Arlington, Virginia
22230.

                                .   .
Debarment

Regulatory Basis for Debarment

Pursuant to 2 CFR 180.800, debarment may be imposed for:
           t




       (b)     Violation of the terms of a public agreement or transaction so serous as to affect
               the integrity of an agency program, such as -

               (1)     A willfbl failure to perform in accordance with the terms of one or more
                       public agreements or transactions; or
                                                                                           Page 4
               (3)    A willfulvi0lation of a statutory or regulatory provision or requirement
                      applicable to a public agreement or transaction

In any debarment action, the government must establish the cause for debarment by a
preponderance of the evidence. 2 CFR 180.850. In this case, you knowinglyplagiarized material
in a grant proposal submitted to the Foundation. Thus, your action supports a cause for
debarment under 2 CFR 180.800(b).


Length of Debarment         I




Debarment must be for a period commensurate with the seriousness of the causes upon which an
individual's debarment is based. 2 CFR 180.865. Generally, a period of debarment should not
exceed three years but, where circumstanceswarrant, a longer period may be imposed. 2 CFR
180.865. Having considered the seriousness of your actions, as well as the relevant aggravating
and mitigating factors set forth in 2 CFR 180.860, we are proposing your debarment until August
31, 2010.


Auueal Procedures for find in^ of Research Misconduct and Procedures Governing
Proposed Debarment


Appeal Procedures for Finding of Research Misconduct

Under NSF's regulatio ,you have 30 days afier receipt of this letter to submit an appeal of this
finding, in writing, to the Director of the Foundation. 45 CFR 689.10(a). Any appeal should be
addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard, Arlington,
Virginia 22230. If we do not receive your appeal within the 30-day period, the decision on the
finding of research misconduct will become final. For your information, we are attaching a copy
of the applicableregulations.


Procedures Governing Proposed Debarment

The provisions of 2 CFR Sections 180.800 through 180.885 govern debarment procedures and
decision-making. Under our regulations, you have 30 days afier receipt of this notice to submit,
in person or in writing, or through a representative, informationand argument in opposition to
this debarment. 2 CFR 180.820. Comments submitted within the 30-day period will receive full
consideration and may lead to a revision of the recommended disposition. If NSF does not
receive a response to this notice within the 30-day period, this debarment will become final.

Any response should be addressed to                   General Counsel, National Science
Foundation, Ofice of the General Counsel, 4201 Wilson Boulevard, Room 1265, Arlington,
                                                                                           Page 5
Virginia 22230. For your information, we are attaching a copy of the Foundation's regulations on
non-procurement debarment and FAR Subpart 9.4. '

Should you have any questions about the foregoing, please contact              Assistant
General Counsel, at (703) 292-



                                                   Sincerely,



                                                   Cora-B. Marrett
                                                   Acting Deputy Director


Enclosures:        ...
Investigative Report
Nonprocurernent Debarment Regulations
FAR Regulations
45 CFR Part 689
        National Science Foundation
        Office of Ins,pectorGeneral




                                    Confidential
                               Report of Investigation       1


                              Case Number A07040020
                                  15October 2008                                                  .       .




                                                                                                      .           .
                                                                             . . . . . . . . .. .:                         . . . . .. . .*. :
     ..<;*. . . .              ..          .....     .   .
                                                                         .
                                                                                *.,...    ....*:;<?..                 .   : ...                 ...    .   .

. ..x'&fidgw
       . ...                  Repo*   ~ ~ ~ & &gthe&~ ~~o p       ~ f rt yh e ; ~ s ~d at r Im ~
                                                                                               y &"&closed
    .;MFb d $ : b y ,.-o.,1 ~.                 f&dom:of,Jnf&+ibb+d . ? Pr&j;;&,                          . . , .., ..:,.:4:;., .
                                                                                          3U.S.C$$:552,552&
                                                                                                                                                           ,




                                      ./ .".
                                                                                              :       .       ,
                    .i.   '
                                                  <.   :                        ... . .    .    .                                               :




                                                                                                                                     NSF OIG Form 22b (11/06)
                                        Executive Summarv

Allegation:         A PI (the Subject) allegedly plagiarized 185 lines of text fiom another PI'S awarded
                    NSF proposal into his own NSF proposal.
OIG Inquiry:        We reviewed the proposal and source document and contacted the Subject and
                    CoPI for their perspectives. OIG determined there was sufficient need for a full
                    investigation and referred the matter to the Subject's University.
University          The University determinedlby a preponderance of the evidence that the Subject was
Investigation       solely responsible for knowingly copying the material into the proposal, which was
and Action:     '   a significant departure from accepted practices. The University took the following
                    actions: 1) placing the Subject on leave without pay for one semester; 2)
                    prohibiting him fiom supehising, advising and participating in student research
                    programs for one year; 3) prohibiting him from submitting research proposals
                    through any internal or external funding source for two years; and afterward 4)
                    allowing him to submit intkrnal and external research proposals which must be
                    reviewed by a university committee.
OIG'S                OIG concurs with the University's assessment.
Assessment:
                          The Act: The Subject copied 185 lines into his NSF proposal.
                          Intent: The Subject acted knowingly.
                          Standard of Proof:(j The preponderance of the evidence supports the
                          conclusion that the Subject committed intentional plagiarism.
                          Significant Departure: The Subject's plagiarism was a significant departure
                          fiom the accepted practices of his research community.


                    .
                          Pattern: The subj&t9s body of written work does not establish an
                           evidentiary basis to support a pattern of plagiarism.
OIG                     send a letter of reprimand to the Subject informing him that NSF has made a


                    .
Recommends              finding of research miiconduct;
that NSF:           •   debar the Subject for 2 years from the date of NSF's finding;
                        require the Subject to provide to the Associate Inspector General for
                        Investigations (AIGI) certification of completion of research ethics training
                        prescribed by the University before submitting any proposals to NSF on which
                        he is the PI or CoPI;
                        require the Subject to certify to the AIGI, each time he submits a proposal or
                        report to the NSF, that the proposal or report does not contain plagiarized,
                        fabricated, or falsified material, for 5 years following the debarment;
                        require the Subject to submit assurances by a responsible official of his
                        employer to the AIGI, each time he submits a proposal or report to the NSF,
                        that the proposal or report does not contain plagiarized, fabricated, or falsified
                        material, for 5 years following the debarment; and
                        bar the Subject fiom serving as a NSF reviewer, advisor, or consultant for a
                        period of 5 years following the debarment.
    CONFIDENTIAL




                                                   i
             Our of'fice conducted an inquily into an allegati6n that aproposal (the ~ r o ~ o s a l ) '   '

     contained plagiarized material. We identified I85 lines of text apparently copied fiom an
    ;awarded proposal sQbmittedto NSF (the ~ource).~     We determined that the principal investigator
     (PI)! on thejproposal w.as formerly an NSF qrogram of'ficer on temporaryassignment fiom his               ,


     univkity (the University) under the ~nter~ovemmental    Personnel ~ c(@A).t    'While on this P A
     assignment at NSF, the PI carried out the merit review for the Source arid recommended it for
     award?    ,




             We contacted boththe PI (the subjeit)' and the C O P I ~i *n ~the Proposal about the
.    allegation. Both provided                  In her response, the CoPI denied any responsibility for            ,


                                                                                                      .
     the copied text and stated that her role in the submission was only to serve as'a "designated
     representative" for the subject." As a for-      NSF program officer, the Subject was.required to
     designatesomeone to se&e as a "substitute riegotiator" for one year following NSF.
     employment.'    '                     .' .
              The subject's response did not addrefs his CoP17srole in the preparation of the proposal.
     He did not deny that he copied the text without.attribution and said he was "highly influenced" I*
     by the Source. The Subject iilformed us that he "legally obtained this [the Source] and 29 other -                .
                                                                                                                           .   .
     NSF proposals directly fiom the Pls" as material for a book he was editing.I3 H,e said he sent a
     Ietter to each of the PISto inquire whether they were willing to participate in the book as a
     potential contributing author and that he had "permission h m the legal division of NSF to
     proceed with this project."'4 He received an affirmative response from the Source PI."

             Based on the responses fio~:theSubject and CoPI, we concluded that there was
     sufficient evidence to warrant a detailed investigation. We referred the matter to the.University
     with both the PI and Cop1 as subjects.16




      Tab 03-Review Analvsis'forSource.



       Tab ~d~ubject-res~onse   to the inquiry letter.                       ..
       ~ a 07-CoPI
            b       response to the inquiry letter.'
     'O Tab 07, page 1.
     " 45 C.F.R..Q 680.12(e).
     '  Tab 06, page 1.
                                          .  .
     ''
     14
        Tab 06, page 1.
        Tab 06, page 2-Subject response to the inquiry letter.
     IS Tab 08-Letter to Subject fromauthor of Source to participate in book editing project.
     l6 Tab 09-OIG investigation referral letter to the UniGersity.
                        .
CONFIDENTIAL                                                                          CONFIDENTIAL


                             The Universitv's Inquirv and ~nvestieation"

        In accordance with University            the Provost assembled an inquiry coinmittee to
determine if a fill investigation was warranted. The inquiry committee reviewed relevant email
and electronic documents, and interviewed appropriate personnel, including the CoPI and the
Subject. In a letter, the Subject waived his ri$t to a hearing by the inquiry committee regarding
its determination.lg

        In the letter, the Subject stated that he was "guilty as charged, but this is a case of
unintended plagiarism," and he offered an eiplanation for his actions.20 The Subject said that the
plagiarism was a result of "sloppy editing and time constraint^."^' He admitted to using the
Source to prepare his proposal but claimed to have removed this material when he could not find
published literature supporting the copied tekt. The Subject said he prepared the proposal at a
remote jungle location, an hour's drive from internet access:

                  On recalling the moment when I 'saved' the version without the
                  unattributed passages---I was distracted by some bird vocalizations
                  outside my thatched roof hut . . . --- I grabbed my Nikon digital
                  camera and tried to get close "enough to photograph the pair of
                  Cream-colored Woodpeckers source of the vocalizations. Half an
                  hour later on return to the computer I found that it had crashed. In
                  any case I thought I had saved the 'final version' that was without
                  the passages that got me into NSF's cross-hairs.22

       The inquiry coinmittee concluded that t h CoPI
                                                   ~      was not involved in preparing the
Proposal; the role of the CoPI was only to serve as a negotiator in communications with NSF in
the event the Proposal was recommended for award.23 Based on its review of the evidence, the
                    determined that a detailed investigation was warranted with respect to the


        Following the recommendation for investigation of the allegations against the Subject by
the inquiry committee, the University established an Investigation ~omrnittee,~'      which received
a briefing from the Inquiry ~ o r n r n i t t e e .The
                                                    ~ ~ Investigation Committee members carefilly
reviewed the proposal and the Source in sidf-by-side comparisons. They identified words
changed in the copied text and considered the implication of the words changed in determining

17
    The University carried out an inquiry in which both the Subject and the CoPI were treated as subjects in order to
resolve clearly the contributions each made to the Proposal. Because the CoPI was ultimately cleared of any
wrongdoing in this matter, our investigation report focuses primarily on the role of the Subject.
''
 19
    Tab 10-University Collected Rules and Regulations on Research Misconduct.
    Tab 11-Subject letter regarding Inquiry committe'k.
20 ~ a 1b 1, page 1.
" ~ a b11,page 1.
' * ~ a b11,page 1.
23 Tab 12-University letter to OIG, July 18,2007.
24 Tab 12, page 2.
25 Standing Committee on Research Misconduct
26 Tab 13-Powerpoint presentation to Investigation Committee.
CONFIDENTIAL

intent. The species to be studied was changed. 'Most notably, there were many s ecific instances
in which the Subject changed "we will" in the Source to "I will" in the Proposal!     The
Investigation Committee observed that, "of the few changes made among long strings of
plagiarized sentences, the most contemptuous were the selective deletions of references to"
publications by the author of the Source in the copied section^.'^ In addition, the Investigation
Committee determined that the material from the Source, comprising almost the entire
methodology section, was a necessary component of the project description. The Investigation
Committee concluded "that it would be unlikely that the proposal would be viable if the
plagiarized sections were omitted"29and, therefore, the plagiarism was definitely intentional.

       Based on the evidence, the Investigation Committee concluded that by a preponderance
of the evidence the Subject had intentionally committed plagiarism in the Proposal and that the
Subject's actions were a significant departde fiom the practices of the relevant research
community. The Provost analyzed the evidence and the Investigation.ComrnitteeYs
recommendation and concurred with its a s s e ~ s m e n t .In~ ~accordance with the University policy,
the evidence was then forwarded to the Uniyersity Deciding official" to make the final ruling.
The University Deciding Official analyzed the findings and concurred with the conclusion^.^^

                                  The Universitv's Final Determination
                                                     I1



        A hearing was held by the Tenure and Promotion Committee, which included the Subject
by teleconference, regarding recommendations for appropriate sanctions. The University's
Deciding Official accepted the re~ommendations~~ which included:

         1. The Subject will be placed on leave without pay for one semester;
         2. The Subject will be prohibited fiom supervising, advising, and participating in
            student research programs for odk year;
         3. The Subject will be prohibited from submitting research proposals through any
            internal or external fbnding source for two years; and
         4. Afterwards, the Subject will be allowed to submit internal and external research
            proposals which must be reviewid by a university committee for two years.

                                               OIG's Assessment

        We notified the Subject that we had received the Investigation Committee's report and
offered him the opportunity to respond with any additional comment^.'^ The Subject responded
by letter notifying us he requested a hearing to explain how he "committed unintended


27
   Tab 14, page 4.
   Tab 14, page 3.
'' Tab 14, page 2.
30 Tab 15-University letter to OIG, Apiil 1,2008.
31
   The University Chancellor.
32 Tab 15, page 3.
33 Tab 16-University Deciding Official's letter to Subject.
34 Tab 17-01G letter to Subject to respond to University In\;estigation Report.
    CONFIDENTIAL                                                                     CONFIDENTIAL

    plagiarism."35 The Subject apologized for $is actions and reiterated his belief that the plagiarism
    was unintentional:

                       I did include materials I had access to fiom [the author of the Source]. I
                       legally obtained this and 29 other successful NSF proposals directly from
                       the PIS . . . . I did not cite [the author] in my proposal because my intent
                       was first of all to obtain via the internet [the author's] most recent
                       published information similar to the content in her proposal. I found no
                       such published literature, and,because I knew that NSF scrutinizes             I
                       proposals from recent Program Directors for 'compliance issues,' I
                       removed all of the 'plagiarizd materials,' read the entire document on
                       screen, and 'saved' the new version . . . .

                       So what appears to be a deliberate act of research misconduct was due to
                       sloppy editing and time constraints on my part. However, this is
                       plagiarism none-the-less, and I assume 111 responsibility for not following
                       convention. I am guilty as charged, inadvertent or not, and I apologize to
                       the community of scholars of [the University], and NSF for the negative
                       attention and sense of sharne'lthatmy actions have caused. I have already
                       apologized in person to . . . my named co-PI who did not participate in any

I                      aspect of the proposal preparation. I realize that acts of plagiarism undo
                       and overshadow all of the pokitive accomplishments that I have
                       accumulated over the years and now I am prepared to live with this
I                      negative attribute for the rest of my life.36
I
i           We reviewed the Investigation Committee's report and the conclusions by the Deciding
    Official. We determined that the Investigation Committee's investigation was accurate and
    complete in accordance with reasonable pro,cedures.37

            A finding of misconduct requires that (1) there be a significant departure from accepted
    practices of the relevant research community, (2) the research misconduct be committed
    intentionally, or knowingly, or recklessly, and (3) the allegation be proven by a preponderance of
    the evidence.38




    35
         Tab 18-Subject response to OIG regarding University investigation Report.
    3G   ~ a 3b1 , pages 1 and 2:
    ''   45 C.F.R. 5 689.9(a).
                                                                                        \

    ''   45 C.F.R 4 689.2(c).
             CONFIDENTIAL                                                                  CONFIDENTIAL


                                                              The Act

                     The Subject admitted to copying the identified text fiom the Source, an awarded IVSF
             prbposal, without attrib~tion,'~ claiming thatl~hisplagiarism was unintentional. He explained that
             he submitted the incorrect version of the Proposal and did not intentionally submit a proposal
             that contained plagiarized text. However, the Investigation Committee did not find this
I
             explanation credible and neither do we.       ";

                     The Subject copied 185 lines of text fiom the Source to describe the methodology for his
             proposed research, which covered 5 pages of the 15-page project description. In copying such
             large sections of contiguous text fiom the Source, the Subject also copied the ideas that the text
             described, thus also committing intellectual theft. Therefore, we concur with the Investigation
             Committee's assessment that the Subject's copying meets the definition of plagiarism.

                                                                  Intent
    I
                                                              I


                     The Subject has reiterated that his actions of research misconduct were not deliberate
             and that he "committed unintended plagiarism."40 Again, we concur with the Investigation
             Committee that the subject's explanation is not credible.

                     The explanation is not credible for several reasons, as pointed out in the University
             Investigation Report: 1) side-by-side comparisons of the Proposal and Source reveal words
             changed throughout the copied sections fiom "we will" to "I will" that present the copied
             material as the work of the Subject; 2) references citing the author of the Source were deleted
             frbm the copied sections; 3) the subject matier of the copied material was in a field of study in
             which the Subject had limited expertise; and 4) the material fiom the copied sections constituted
             a substantial part of the Proposal and was necessary to the cohesion of the proposed project.41

                     The Investigation Committee concluded the evidence supports a conclusion that the
    I
             subject acted intentionally. We concur.
    I
    I

    I
    ,    .
                                                          Standard o f Proof   ,   .   .

                     The preponderance of the evidence dhows that the Subject intentionally copied 185 lines
    I        from the Source, an awarded NSF proposal, which is a significant departure fiom accepted
    II       practices in the relevant research community. Therefore, we conclude that the Subject's actions
             meet the definition of plagiarism and his actions constitute research misconduct.

                                                   OJG's Recommended Disposition

                    When deciding what appropriate action to take .upona finding of misconduct, NSF must
             consider:


             39
                  Tab 10, page 1 and Tab 12, page 1.
             40   ~ a 17,
                       b page 1.
             41
                  Tab 14, page 3.
    CONFIDENTIAL
       . .
                                                                                  CONFIDENTIAL


                      (1) How serious the misconduc! was; (2) The degree to which the
                      misconduct was knowing, intkntional, or reckless; (3) Whether it
                      was an isolated event or part of a pattern; (4) Whether .it had a
                      significant impact on the research record, research subjects, other
                      researchers, institutions, or thk public welfare; and (5) Other
                      relevant circumstances.42
                           .   .

                                                      Seriousness

           The Subject's proposal contained 185 lines of copied text (approximately 5 pages of the
    15 page project description) from an awarded NSF proposal, which is a significant amount of
    copied text. In addition, his submission of a proposal containing plagiarized material subjected
I   his innocent CoPI to unwarranted suspicion.

            The Subject's plagiarism is rendered more serious by the fact that he identified the
    Source author's work while he was carrying out confidential merit review as an NSF program
    officer. While awarded proposals are available through FOIA requests or from the authors, the
    Subject-solely because of his NSF position-was able to determine precisely which proposal
    he was interested in, ostensibly for his book.

                                   Degree to which the Act was Intentional (Purposeful)

            As described above, the plagiarism by the Subject was intentional and not merely
    knowing. The Subject identified the ~ o u r c kas an example of best practices while he was a)
    program officer at NSF. He copied large portions of the methodology into his proposal and
    selectively edited single words to designate the work as his own (e.g.,changing "we will" as in
    the Source to "I will" in the Proposal). In ahdition, he removed citations to references published
    by the author of the Source from the copied sections, and the copied material covered almost one
    third (5 of 15 pages) of the project description explaining the methodology in the proposed
    project.

            In addition, as an NSF program officer, the Subject was required to attend NSFYs
    Program Management Seminar which included a session on research 'misconduct and handling
    allegations. At that Seminar, the subject was informed that, as an NSF program officer, he was
    responsible for reporting to OIG any allegations of misconduct involving proposals submitted for
    funding.') Therefore, the Subject was well{informed about NSF's standards for research
    integrity and misconduct, and knew that plagiarism was a significant departure from the accepted
    practices of his research community.

            Based on the Subject's clear awarerlkss of ethical standards, his efforts in identifying the
    best awarded NSF proposal related to his research and then meticulously editing the text from
    that proposal into his own proposal, we conclude that the Subject acfed with the very highest
    degree of intentionality.


    42   45 C.F.R. 689:3(b)
    43   PAM X.D.1;   PERI-143.
    CONFIDENTIAL                                                                  CONFIDENTIAL



                                                   Pattern o fBehavior
                                                                                                                    I
           There was no evidence of other acts of plagiarism by the Subject and, therefore, his                     II
    actions do not appear as part of a larger pattern of behavior.

                                            Impact on the Research Record
                                                                                                                i

            The evidence shows no impact on the,,publishedresearch record.             .

                          The Subject's ~ i s ~ o ntos eOIG's Drqft Investigation Report

             The Subject was given the opportuni~to respond to the NSF draft investigation report;
    however, the Subject declined to respond and stated that he was "not participating any further in
    this i n ~ e s t i ~ a t i o n . "Therefore,
                                       ~~        the findings and recommendations for the final investigation
    report were not changed from the draft investigation report.

                                                    Recommendations
                                                                .   .    ,




             Based on the evidence, OIG recommends that NSF:

                  send a letter of reprimand to the Subject informing him that NSF has made a finding
              ,   of research m i s c o n d u ~ t .; ~ ~

                  debar the Subject for 2 years from the date of NSFYsfinding;46

                  require the Subject to provide to the Associate Inspector General for Investigations
                  (AIGI) certification of completion of research ethics training prescribed by the
                  University before submitting any proposals to NSF on which he is the PI or C O P I ; ~ ~

                  require the Subject to certify to the AIGI, each time he submits a proposal or report to
                  the NSF, that the proposal or report does not contain plagiarized, fabricated, or
                  falsified material, for 5 years follhwing the 2 year debarment;48

                  require the Subject to submit assurances by a responsible official of his employer to
                  the AIGI, each time he submits a,proposal or report to the NSF, that the proposal or
                  report does not contain plagiarized, fabricated, or falsified material, for 5 years
                  following the 2 year debar~nent;~' and




-   44
       Tab 19-Subject response to Draft ROI
    45 This is a Group I action 45 C.F.R. $689.3(a)(l).
    46
       This is a Group III action 45 C.F.R. $689.3(a)(3).
    47 This is equivalent to a Group I action 45 C.F.R. $689.3(a)(l).
    48 This is equivalent to a Group I action 45 C.F.R. $689.3(a)(l).
    49
       This is a Group I action 45 C.F.R. $689.3(a)(l).
CONFIDENTIAL                                                            CONFIDENTIAL

            bar the Subject from serving as a NSF reviewer, advisor, or consultant for a period of
            5 years.50




 This is'a Group 111 action 45 C.F.R. $689.3(a)(3).
